APPENDIX TABLE OF CONTENTS
FEDERAL OPINIONS AND ORDERS
Memorandum Opinion of the United States Court
of Appeals for the Ninth Circuit
(March 17, 2020) ................................................. 1a
Judgment of the United States District Court
Central District of California
(March 6, 2018) ................................................... 4a
Report and Recommendation of United States
Magistrate Judge Alexander F. MacKinnon
(September 18, 2017).......................................... 5a
Rehearing Denial Order of the United States Court
of Appeals for the Ninth Circuit
(April 23, 2020) ................................................. 36a
STATE COURT OPINION
Opinion of the Court of Appeal of the State of
California Second Appellate District Division
Six (November 29, 2012) .................................. 38a
SUPPORTING DOCUMENT IN FEDERAL COURT
Transcribed Recording Between Confidential
Informant Bracknell and Daniel Flores
(March 6, 2008) ................................................. 52a
DOMINGUEZ CASE DOCUMENT
Transcribed Recording Between Confidential
Informant Bracknell and Ramon Dominguez
(February 2008) ................................................ 65a

App.1a
MEMORANDUM OPINION OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(MARCH 17, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
DANIEL FLORES,

Petitioner-Appellant,
v.
CHRISTIAN PFEIFFER, Warden,

Respondent-Appellee.
________________________
No. 18-55344
D.C. No. 2:13-cv-03934-JLS-AFM
On Appeal from the United States District Court
for the Central District of California
Josephine Staton, District Judge, Presiding
Submitted March 6, 2020
Pasadena, California

 This disposition is not appropriate for publication and is not
precedent except as provided by Ninth Circuit Rule 36-3.
 The panel unanimously concludes this case is suitable for decision without oral argument. See Fed. R. App. P. 34(a)(2).

App.2a
Before: HURWITZ and FRIEDLAND,
Circuit Judges, and KORMAN, District Judge.
While Daniel Flores was in jail after being arrested
on drug charges, both he and Jose Velasquez were
surreptitiously recorded during conversations with a
paid confidential informant (“CI”). The CI introduced
himself as a member of the Mexican Mafia, and stated
that he had heard that attacks committed by Flores
and Velasquez were drive-by shootings in violation of
the Mafia’s code of conduct. The CI stated that he was
tasked with getting to the bottom of these rumors, and
that their names would be cleared if they confirmed
the attacks were not drive-by shootings. In response,
Flores and Velasquez confessed to the crimes, but
explained that they were not drive-by shootings.
Flores and Velasquez were tried separately in
California state court. Both statements were admitted
at Flores’ trial and he was convicted of murder and
attempted murder. After unsuccessfully pursuing direct
appeals and state habeas relief, Flores filed a 28
U.S.C. § 2254 habeas corpus petition, which the district
court denied. We have jurisdiction of Flores’ appeal
under 28 U.S.C. § 1291 and affirm.
1. Flores argues that his confession was coerced
because the CI told him that his name was dirtied by
rumors that he had committed drive-by-shootings,
and that he could avoid any adverse consequences if
he dispelled those rumors. The California Court of
Appeal found that the CI did not threaten Flores, and
 The Honorable Edward R. Korman, United States District
Judge for the Eastern District of New York, sitting by designation

App.3a
that Flores did not confess out of fear. Considering the
totality of the circumstances, the Court of Appeal’s conclusion that Flores voluntarily confessed was not contrary to, or an unreasonable application of, clearly
established federal law. See Williams v. Taylor, 529
U.S. 362, 412 (2000).
2. Flores argues that Velasquez’s testimony was
also coerced and improperly admitted at Flores’ trial.
Flores raised this argument on direct appeal to the
California Court of Appeal but not in his petition for
review to the California Supreme Court. Accordingly,
when Flores subsequently raised this claim in a state
habeas petition, the California Supreme Court summarily denied the petition, citing In re Waltreus, 397
P.2d 1001, 1005 (Cal. 1965), and In re Dixon, 264 P.2d
513, 514 (Cal. 1953). Given the Waltreus citation, this
claim is procedurally barred from habeas review, and
the record reveals no cause for the procedural default
and no prejudice. See Forrest v. Vasquez, 75 F.3d 562,
563–64 (9th Cir. 1996); see also Coleman v.
Thompson, 501 U.S. 722, 732, 750 (1991).
3. The district court correctly rejected Flores’
argument that the Sixth Amendment was violated
under the rule in Massiah v. United States, 377 U.S.
201, 203–04, 207 (1964), when he was questioned by
the CI without the assistance of counsel. This claim
fails because the CI questioned Flores regarding
uncharged conduct, unrelated to the charge for which
he was being detained, and therefore his right to counsel
had not attached. See Texas v. Cobb, 532 U.S. 162,
167–68 (2001).
AFFIRMED.

App.4a
JUDGMENT OF THE UNITED STATES DISTRICT
COURT CENTRAL DISTRICT OF CALIFORNIA
(MARCH 6, 2018)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
DANIEL FLORES,

Petitioner,
v.
R. BARNES, Warden,

Respondent.
________________________
Case No. CV 13-03934 JLS (AFM)
Before: Josephine L. STATON,
United States District Judge.
Pursuant to the Order Accepting Findings and
Recommendations of the United States Magistrate
Judge,
IT IS ORDERED AND ADJUDGED that the
Third Amended Petition is denied and the action is
dismissed with prejudice.
/s/ Josephine L. Staton
United States District Judge
Dated: March 6, 2018

App.5a
REPORT AND RECOMMENDATION OF
UNITED STATES MAGISTRATE JUDGE
ALEXANDER F. MACKINNON
(SEPTEMBER 18, 2017)
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
________________________
DANIEL FLORES,

Petitioner,
v.
R. BARNES, Warden,

Respondent.
________________________
Case No. CV 13-03934 JLS (AFM)
Before: Alexander F. MacKINNON,
United States Magistrate Judge.
This Report and Recommendation is submitted to
the Honorable Josephine L. Staton, United States District Judge, pursuant to 28 U.S.C. § 636 and General
Order 05-07 of the United States District Court for the
Central District of California.
INTRODUCTION
On May 8, 2013, petitioner filed a Petition for
Writ of Habeas Corpus by a Person in State Custody
(28 U.S.C. § 2254). The operative pleading is the Third

App.6a
Amended Petition filed by petitioner’s counsel on September 7, 2016. The Third Amended Petition raises
three grounds for federal habeas relief. The crux of the
Third Amended Petition is that petitioner’s constitutional rights were violated by the admission of an involuntary confession petitioner made while in jail to a
confidential informant.
As discussed below, the Court recommends that
the Third Amended Petition be denied and that this
action be dismissed with prejudice.
PROCEDURAL BACKGROUND
On February 18, 2011, a Ventura County Superior
Court jury found petitioner guilty of one count of firstdegree murder and two counts of attempted murder.
The jury found true allegations of gang affiliation and
firearm use. Petitioner was sentenced to state prison for
life without the possibility of parole. (3 Clerk’s Transcript [“CT”] 532-39, 570; 8 Reporter’s Transcript [“RT”]
1316-19, 1331-33.)
Petitioner appealed. (Respondent’s notice of lodging, Lodgment 4.) In an unpublished decision filed on
November 29, 2012, the California Court of Appeal
affirmed the judgment of conviction. (Lodgment 7.) On
February 13, 2013, the California Supreme Court
summarily denied a Petition for Review. (Lodgments
8 and 9.)
On May 8, 2013, petitioner initiated this action by
filing a Petition for Writ of Habeas Corpus by a Person
in State Custody. The Petition raised a single claim:
Petitioner’s conviction was obtained by his involuntary confession. On October 3, 2013, respondent filed
an Answer. Petitioner then hired private counsel, who

App.7a
filed a Traverse on June 6, 2014. In the Traverse, petitioner raised for the first time four additional and
unexhausted claims.
On September 22, 2014, the previously-assigned
Magistrate Judge permitted petitioner, in the interests
of justice, to file further briefing in support of an
amended petition. On October 23, 2014, petitioner
filed a First Amended Petition. On February 18, 2015,
petitioner filed a Second Amended Petition.
On July 20, 2015, this case was transferred to the
calendar of the undersigned Magistrate Judge.
On September 17, 2015, petitioner requested a
stay of the proceedings while he returned to state court
to exhaust his unexhausted claims. The Court issued
a Report and Recommendation in which it was recommended that petitioner could request a stay under
Kelly v. Small, 315 F.3d 1063 (9th Cir. 2003), for two
additional claims that related back to his initial claim of
an involuntary confession. The District Judge accepted
the findings in the Report and Recommendation on
June 10, 2016.
On July 5, 2016, petitioner filed a habeas petition
in the California Supreme Court in which he raised
the two additional claims. (Lodgment 10; ECF No. 75.)
The California Supreme Court denied the petition on
August 24, 2016. (Lodgment 10.)
Petitioner filed a Third Amended Petition on September 7, 2016. Respondent filed an Answer on January
5, 2017. Petitioner filed a Traverse on March 31, 2017.

App.8a
SUMMARY OF THE TRIAL EVIDENCE
Petitioner was convicted of the attempted murders
of Rafael R. and Jesus R. and the murder of Armando
Sepulveda, Jr. The California Court of Appeal’s opinion
on direct review set out the following factual summary
of the evidence presented at trial. (Lodgment 7 at 2-3.)1
Attempted Murders. Rafael R. lived on Lemar
Avenue in El Rio. During the afternoon of
January 9, 2008, he was in his backyard
painting. His nephew Jesus R. was also in
the backyard. Rafael saw a 20-to 25-year-old
Hispanic man on a fence with a gun. The man
began firing his gun, wounding both Rafael
and Jesus. A witness also saw the shooter
run to a car after the shots were fired. The
car drove away. Rafael and Jesus survived
the attack.
Sepulveda Murder. Armando Sepulveda, Sr.,
and his family also lived on Lemar Avenue in
El Rio. On the evening of February 4, 2008, his
son Armando Sepulveda, Jr., walked outside
his house and was wounded by several
gunshots. Sepulveda managed to get back
into his house where he stated that “they
shot me.” He told his parents that he loved
1 The Ninth Circuit has held that the factual summary set forth
in a state appellate court opinion is entitled to a presumption of
correctness pursuant to 28 U.S.C. § 2254(e)(1), which a party
may rebut only by clear and convincing evidence that the facts
were otherwise. See Brown v. Horell, 644 F.3d 969, 972 (9th Cir.
2011); Moses v. Payne, 555 F.3d 742, 746 n.1 (9th Cir. 2009);
Tilcock v. Budge, 538 F.3d 1138, 1141 (9th Cir. 2008); Mejia v.
Garcia, 534 F.3d 1036, 1039 n.1 (9th Cir. 2008). Petitioner has
not attempted to rebut the Court of Appeal’s factual summary.

App.9a
them, and fell to the living room floor. His
father took him to the hospital where he died
later in the evening.
Three neighbors saw a man running from
the scene, and two neighbors heard four to
six shots. One neighbor described the man as
slender and young and wearing black
clothing and a baseball cap. Another neighbor described the fleeing man as running as
if he had something in his pocket. She also
stated that he got into a small light colored
older “SUV Blazer or Bronco or something,”
and that one of its brake lights was inoperative. The description was dispatched to police.
Police Investigation. Approximately 20
minutes after the shooting, a police officer
patrolling the Colonia section of Oxnard, saw
a 1987 light gray Chevrolet Blazer with a
right brake light noticeably dimmer than the
left. The Blazer’s engine was running and
the driver was sitting in the vehicle. The
officer turned around and began driving
towards the Blazer. The driver exited the car
and walked away with a man the officer
believed to have been a passenger in the
Blazer. The men were temporarily detained
and identified as [petitioner] and Jose
Velasquez. In the ensuing weeks, police
made two additional stops of a light colored
SUV Blazer. They were not positively
identified as the same vehicles, but both had
an inoperative brake light and Velasquez was
the driver on both occasions. [Petitioner] was a
passenger on one occasion and Brandon Arauz

App.10a
was a passenger on the other occasion. On the
same day as the second traffic stop, officers
found a .25-caliber handgun in a garage near
a party attended by [petitioner] and other
known Colonia Chiques gang members. The
expended bullet casing at the scenes of the
attempted murders and the murder were
fired from that gun.
Confessions. In jailhouse conversations with
a police confidential informant (CI), [petitioner] confessed to involvement in the
murder of Sepulveda and attempted murder
of Rafael and Jesus R., and Jose Velasquez
confessed to involvement in the murder.
[Petitioner] stated to the CI that he and
Brandon Arauz went up to Sepulveda, [petitioner] shook Sepulveda’s hand, and Arauz
fired the fatal gunshots. Velasquez stated to
the CI that he drove to the Sepulveda
residence with [petitioner] and Arauz. [Petitioner] and Arauz got out of the car and
walked towards Sepulveda’s residence where
several shots were fired.
Gang Evidence. A prosecution gang expert
testified that [petitioner], Brandon Arauz
and Jose Velasquez were active members of
the Colonia Chiques criminal street gang.
The Colonia Chiques had an intense rivalry
with the El Rio criminal street gang, and
members of each gang often entered each
other’s territory to “strike out at” members of
the other gang. The expert identified gang
symbols and signs of the Colonia Chiques,
and described the gang’s extensive criminal

App.11a
activities. He also testified to the importance
of respect in the gang and retaliation against
expressions of disrespect.
PETITIONER’S CLAIMS
1. Petitioner’s confession to the confidential
informant was involuntary. (Third Amended Petition
at 7-19; Traverse at 1-5.)
2. Jose Velasquez’s confession to the confidential
informant was involuntary. (Third Amended Petition
at 20-23; Traverse at 6-11.)
3. Petitioner’s confession was deliberately elicited
by a government agent in violation of Massiah v.
United States, 377 U.S. 201 (1964). (Third Amended
Petition at 23-26; Traverse at 12-14.)
STANDARD OF REVIEW
Under 28 U.S.C. § 2254(d), as amended by the
Antiterrorism and Effective Death Penalty Act of 1996
(“AEDPA”):
“An application for a writ of habeas corpus on
behalf of a person in custody pursuant to the
judgment of a State court shall not be granted
with respect to any claim that was adjudicated
on the merits in State court proceedings
unless the adjudication of the claim—(1)
resulted in a decision that was contrary to,
or involved an unreasonable application of,
clearly established Federal law, as determined by the Supreme Court of the United
States; or (2) resulted in a decision that was
based on an unreasonable determination of

App.12a
the facts in light of the evidence presented in
the State court proceeding.”
Under the AEDPA, the “clearly established Federal
law” that controls federal habeas review of state court
decisions consists of holdings (as opposed to dicta) of
Supreme Court decisions “as of the time of the
relevant state-court decision.” Williams v. Taylor, 529
U.S. 362, 412 (2000); see also Carey v. Musladin, 549
U.S. 70, 74 (2006).
Although a particular state court decision may be
both “contrary to” and “an unreasonable application of”
controlling Supreme Court law, the two phrases have
distinct meanings. See Williams, 529 U.S. at 391, 413.
A state court decision is “contrary to” clearly established federal law if the decision either applies a rule
that contradicts the governing Supreme Court law, or
reaches a result that differs from the result the
Supreme Court reached on “materially indistinguishable” facts. See Early v. Packer, 537 U.S. 3, 8
(2002) (per curiam); Williams, 529 U.S. at 405-06.
When a state court decision adjudicating a claim is
contrary to controlling Supreme Court law, the
reviewing federal habeas court is “unconstrained by
§ 2254(d)(1).” See Williams, 529 U.S. at 406. However,
the state court need not cite or even be aware of the
controlling Supreme Court cases, “so long as neither
the reasoning nor the result of the state-court decision
contradicts them.” See Early, 537 U.S. at 8.
State court decisions that are not “contrary to”
Supreme Court law may be set aside on federal
habeas review only “if they are not merely erroneous,
but ‘an unreasonable application’ of clearly established
federal law, or based on ‘an unreasonable determination
of the facts.’” See Early, 537 U.S. at 11 (citing 28

App.13a
U.S.C. § 2254(d)) (emphasis added). A state-court
decision that correctly identified the governing legal
rule may be rejected if it unreasonably applied the
rule to the facts of a particular case. See Williams, 529
U.S. at 406-10, 413 (e.g., the rejected decision may
state the Strickland standard correctly but apply it
unreasonably); Woodford v. Visciotti, 537 U.S. 19, 2427 (2002) (per curiam). However, to obtain federal
habeas relief for such an “unreasonable application,”
a petitioner must show that the state court’s application of Supreme Court law was “objectively unreasonable.” Visciotti, 537 U.S. at 24-27; Williams, 529 U.S.
at 413. An “unreasonable application” is different from
an erroneous or incorrect one. See Williams, 529 U.S.
at 409-10; Visciotti, 537 U.S. at 25; Bell v. Cone, 535
U.S. 685, 699 (2002). Moreover, review of state court
decisions under § 2254(d)(1) “is limited to the record
that was before the state court that adjudicated the
claim on the merits.” See Cullen v. Pinholster, 563
U.S. 170, 181 (2011).
As the Supreme Court explained in Harrington v.

Richter, 562 U.S. 86, 102 (2011):

“Under § 2254(d), a habeas court must determine what arguments or theories supported
or, as here [i.e., where there was no reasoned
state-court decision], could have supported,
the state court’s decision; and then it must
ask whether it is possible fairminded jurists
could disagree that those arguments or
theories are inconsistent with the holding in
a prior decision of this Court.”
Furthermore, “[a]s a condition for obtaining habeas
corpus from a federal court, a state prisoner must
show that the state court’s ruling on the claim being

App.14a
presented in federal court was so lacking in justification
that there was an error well understood and comprehended in existing law beyond any possibility for
fairminded disagreement.” Richter, 562 U.S. at 103.
Petitioner’s claim in Ground One was denied by
the California Court of Appeal in a reasoned decision
on direct appeal. (Lodgment 7.) The claim then was
presented in his Petition for Review, which the California Supreme Court summarily denied. (Lodgments 8
and 9.) Thus, the California Court of Appeal’s decision
on direct appeal constitutes the relevant state court
adjudication on the merits for purposes of the AEDPA
standard of review for Ground One. See Berghuis v.
Thompkins, 560 U.S. 370, 380 (2010) (where state
supreme court denied discretionary review of decision
on direct appeal, the decision on direct appeal is the
relevant state-court decision for purposes of the AEDPA
standard of review).
Petitioner’s claim in Ground Two was denied by
the California Court of Appeal in a reasoned decision
on direct appeal. (Lodgment 7.) Petitioner next raised
Ground Two (along with Ground Three) in a habeas
petition in the California Supreme Court, which denied
the petition with citations to “See In re Waltreus
(1965) 62 Cal. 2d 218, 225; In re Dixon (1953) 41 Cal.
2d 756, 759.” (Lodgment 10.) The citation to Waltreus
meant that the California Supreme Court rejected a
claim because it had been “rejected on appeal, and
habeas corpus ordinarily cannot serve as a second
appeal.” The citation to Dixon meant that the California Supreme Court rejected a claim because it “could
have been, but [was] not, raised upon a timely appeal
from a judgment of conviction.” Since these two
rulings are mutually exclusive, it is clear that the

App.15a

Waltreus citation applied to Ground Two (which had
already been rejected on appeal) and that the Dixon
citation applied to Ground Three (which could have
been, but was not, raised on direct appeal). See Koerner
v. Grigas, 328 F.3d 1039, 1052-53 (9th Cir. 2003)
(where a state court cited multiple grounds to reject
multiple claims, a federal court may resolve which
ground applied to which claim when the grounds are
mutually exclusive and “only one ground could apply
to each claim”). With respect to Ground Two, the
Court “looks through a denial based on Waltreus to
previous state court decisions.” See Forrest v. Vasquez,
75 F.3d 562, 564 (9th Cir. 1996) (citing Ylst v. Nunnemaker, 501 U.S. 797, 805-06 (1991)). Thus, the California Court of Appeal’s decision on direct appeal
constitutes the relevant state court adjudication on
the merits for purposes of the AEDPA standard of
review for Ground Two.
Petitioner’s remaining claim in Ground Three
was denied by the California Supreme Court solely on
a procedural ground, specifically, the Dixon rule.
(Lodgment 10.) Since the California Supreme Court
rejected the claim on a procedural ground rather than
on the merits, the Court’s review of Ground Three is
under a de novo standard. See Tanner v. McDaniel,
493 F.3d 1135, 1139 (9th Cir. 2007); Chaker v. Crogan,
428 F.3d 1215, 1220-21 (9th Cir. 2005); Pirtle v.
Morgan, 313 F.3d 1160, 1167 (9th Cir. 2002).
DISCUSSION
As an initial matter, respondent contends that
petitioner’s claims in Grounds Two and Three are
procedurally defaulted. (Answer at 5-11.) Because it is
more efficient to dispose of these claims on the merits,

App.16a
however, the Court elects to resolve them solely on
that basis. See Lambrix v. Singletary, 520 U.S. 518,
525 (1997); Franklin v. Johnson, 290 F.3d 1223, 1232
(9th Cir. 2002).
A.

Habeas Relief Is Not Warranted with Respect to
Petitioner’s Massiah Claim (Ground Three).

In Ground Three, petitioner claims that his
confession to the confidential informant was deliberately elicited by a government agent in violation of
Massiah v. United States, 377 U.S. 201 (1964). (Third
Amended Petition at 23-26; Traverse at 12-14.)
Once a defendant’s Sixth Amendment right to
counsel has attached, the government is forbidden
from deliberately eliciting incriminating statements
outside the presence of the defendant’s counsel. Massiah
v. United States, 377 U.S. 201, 206 (1964). This prohibition extends to the government’s use of jailhouse
informants. Randolph v. People of the State of Cal.,
380 F.3d 1133, 1143 (9th Cir. 2004). The defendant
“must demonstrate both that the informant was
acting as a government agent and that the informant
deliberately elicited incriminating statements.”
Fairbank v. Ayers, 650 F.3d 1243, 1255 (9th Cir. 2011)
(citing United States v. Henry , 477 U.S. 264, 270
(1980)).
As a foundational matter, however, a criminal
defendant’s rights under Massiah do not attach until
his Sixth Amendment right to counsel has attached.
United States v. Hayes, 231 F.3d 663, 667 (9th Cir.
2000). The Sixth Amendment right to counsel does not
attach until the initiation of formal charges. Id. (citing
Moran v. Burbine, 475 U.S. 412, 431 (1986)).
Moreover, the Sixth Amendment right to counsel is

App.17a
offense-specific and cannot be invoked for a future
criminal prosecution. Hayes, 231 F.3d at 671-72
(citing McNeil v. Wisconsin, 501 U.S. 171, 175 (1991)).
Petitioner’s Sixth Amendment right to counsel for
the murder and attempted murders had not attached
at the time of his secretly-recorded jailhouse conversation with the confidential informant in March 2008. No
formal charges against petitioner for murder or
attempted murder were pending at that time. Instead,
at that time, petitioner was being detained on an
unrelated charge of violating a gang injunction. (5 RT
891; 4 CT 729.) Formal charges for murder and
attempted murder were not brought against petitioner
until more than one year later in April 2009 (1 CT 32),
when he was arraigned. See United States v. Hines,
963 F.2d 255, 257 (9th Cir. 1992) (noting that formal
adversarial proceedings generally begin with the
arraignment) (citing Michigan v. Jackson, 475 U.S.
625, 629 (1986)).
Petitioner’s right to counsel did not attach earlier.
It did not attach when petitioner was arrested, either
for the shootings or for the unrelated charge of violating the gang injunction. See Anderson v. Alameida,
397 F.3d 1175, 1180 (9th Cir. 2005) (under California
law, the Sixth Amendment right to counsel had not
attached upon the filing of a complaint for an arrest
warrant or upon the actual arrest). Nor did the right
attach when the government deliberately orchestrated
the jailhouse conversation for the sole purpose of
investigating petitioner’s role in the shootings. See
Hayes, 231 F.3d at 674 (“Being a target is not enough,
either.”) (emphasis in original); United States v. Kenny,
645 F.2d 1323, 1338 (9th Cir. 1981) (Sixth Amendment

App.18a
right to counsel does not attach when “a case is still in
the investigative stage”).
In sum, petitioner’s recorded jailhouse conversation
with the confidential informant in March 2008 did not
implicate his Sixth Amendment right to counsel. It
follows that petitioner cannot allege a Massiah violation from the government’s deliberate elicitation of
that evidence.
B.

Habeas Relief Is Not Warranted with Respect to
Petitioner’s Claim Based on His Co-Perpetrator’s
Allegedly Involuntary Confession (Ground Two).

In Ground Two, petitioner claims that Jose
Velasquez’s confession to the confidential informant
was involuntary. (Third Amended Petition at 20-23;
Traverse at 6-11.)
1. Teague Argument.
Respondent contends that granting habeas relief
for this claim would require the creation of a new constitutional rule of criminal procedure, in violation of
Teague v. Lane, 489 U.S. 288 (1989). (Answer at 3-4.)
Where the state properly raises a Teague argument, the
Court generally must address it before reaching the
merits of petitioner’s claim. See Horn v. Banks, 536
U.S. 266, 267 (2002) (per curiam); Caspari v. Bohlen,
510 U.S. 383, 389 (1994); Butler v. Curry, 528 F.3d
624, 633 (9th Cir. 2008); Fields v. Brown, 503 F.3d
755, 770 (9th Cir. 2007).
In Teague, the Supreme Court held that “new
constitutional rules of criminal procedure will not be
applicable to those cases which have become final
before the new rules are announced.” 489 U.S. at 310.

App.19a
“In general . . . a case announces a new rule when it
breaks new ground or imposes a new obligation on the
States or the Federal Government.” Teague, 489 U.S.
at 301. Put another way, “a case announces a new rule
if the result was not dictated by precedent existing at
the time the defendant’s conviction became final.” See

id.

Respondent contends that granting relief for
Ground Two would announce a new rule that a coerced
statement by a third party can violate a habeas petitioner’s right to due process. (Answer at 3.) By respondent’s own account, however, the Ninth Circuit
has held that due process could be violated by the admission of such evidence because of its unreliability.
(Answer at 19-20 [citing Williams v. Woodford, 384
F.3d 567, 593 (9th Cir. 2004), and Douglas v. Woodford,
316 F.3d 1079, 1092 (9th Cir. 2003)].) In the Ninth
Circuit, “circuit court holdings suffice” to create an old
rule under Teague. See Leavitt v. Arave, 383 F.3d 809,
819 (9th Cir. 2004) (per curiam); Butler, 528 F.3d at
635 n.10; Bell v. Hill, 190 F.3d 1089, 1091 (9th Cir.
1999). Although the factual circumstances of these
Ninth Circuit cases are not necessarily identical to
those in this case, “we do not require the existence of
a case for Teague purposes involving identical facts,
circumstances, and legal issues.” See Fields, 503 F.3d
at 772 (citation and internal quotation marks
omitted).
Because respondent failed to account for this
circuit precedent, the Court will not further consider
this Teague argument.

App.20a
2. Absence of Clearly-Established Federal Law.
The Supreme Court has never clearly held that a
criminal defendant’s right to due process is violated
by an involuntary confession made by a third party.
See Samuel v. Frank, 525 F.3d 566, 569 (7th Cir. 2008)
(noting that the Supreme Court “has not decided
whether the admission of a coerced third-party statement is unconstitutional”). Although circuit authority
exists for the proposition that a criminal defendant
may allege a due process violation from the admission
of an involuntary third-party confession because of its
unreliability, circuit authority is insufficient to
demonstrate that a legal proposition has been clearly
established for purposes of the AEDPA standard of
review. See Lopez v. Smith, 135 S. Ct. 1, 4 (2014) (per
curiam); Glebe v. Frost, 135 S. Ct. 429, 431 (2014) (per
curiam). Accordingly, courts have repeatedly found
that habeas relief is unavailable for a claim, subject to
the AEDPA standard of review, alleging a constitutional violation from the admission of an involuntary
third-party confession. See Trammell v. Ducart, 2015
WL 4496338, at *10 (E.D. Cal. Juy 23, 2015) (“No
Supreme Court case addresses the issue of whether
coerced witness testimony can be used against a defendant at trial.”); see also Gutierrez v. Groves, 2017 WL
840655, at *37 (E.D. Cal. Mar. 3, 2017); Saldana v.
Peery, 2017 WL 633898, at *26 (E.D. Cal. Feb. 16,
2017); Shyne v. Asuncion, 2016 WL 6156081, at *7
(C.D. Cal. Sept. 16, 2016); Harris v. Soto, 2016 WL
2587373, at *9 (C.D. Cal. Mar. 25, 2016).
For the same reasons, habeas relief is unavailable
under the AEDPA standard of review for petitioner’s
claim in Ground Two that his constitutional rights
were violated by the admission of Jose Velasquez’s

App.21a
allegedly involuntary confession to the confidential
informant. See Brewer v. Hall, 378 F.3d 952, 955 (9th
Cir. 2004) (“If no Supreme Court precedent creates
clearly established federal law relating to the legal
issue the habeas petitioner raised in state court, the
state court’s decision cannot be contrary to or an unreasonable application of clearly established federal
law.”).
C.

Habeas Relief Is Not Warranted with Respect to
Petitioner’s Claim Based on His Allegedly
Involuntary Confession (Ground One).

In Ground One, petitioner claims that his
confession to the confidential informant, in which
petitioner admitted his participation in the shootings,
was involuntary. (Third Amended Petition at 7-19;
Traverse at 1-5.)
An involuntary statement by a defendant violates
the Due Process Clause of the Fifth Amendment,
applicable to the states through the Fourteenth Amendment. See United States v. Miller, 984 F.2d 1028, 1030
(9th Cir. 1993). A confession is involuntary if coerced
“either by physical intimidation or psychological
pressure.” See United States v. Crawford, 372 F.3d
1048, 1060 (9th Cir. 2004).
Coercion does not require actual physical violence;
a credible threat of physical violence is sufficient.
Arizona v. Fulminante, 499 U.S. 279, 287 (1991). Coercion does not require direct application by the police,
but can be applied by a government agent, such as a
confidential informant. See Fulminante, 499 U.S. at 287
and n.4 (confidential informant acting as a government
agent); Beaty v. Schriro, 509 F.3d 994, 1006 (9th Cir.
2007) (coercion requires a state actor).

App.22a
Deception does not render a confession involuntary; as long as the decision is a product of the
suspect’s own balancing of competing considerations,
the confession is voluntary. Miller, 984 F.2d at 1031;
see also Crawford, 372 F.3d at 1060-61 (“Trickery,
deceit, even impersonation do not render a confession
inadmissible, certainly in noncustodial situations and
usually in custodial ones as well, unless government
agents make threats or promises”).
Whether a confession is involuntary must be
decided by viewing the totality of the circumstances.
See Doody v. Ryan, 649 F.3d 986, 1008 (9th Cir. 2011).
Potential circumstances may include coercion; the
length of the interrogation; its location; its continuity;
and the defendant’s maturity, education, physical
condition, and mental health. See Withrow v. Williams,
507 U.S. 680, 693 (1993).
1. Factual and Procedural Background.
The California Court of Appeal set out the following background of the circumstances of petitioner’s
confession (Lodgment 7 at 4-5):
Here, the police used a paid CI who had
worked in that capacity numerous times in
return for monetary compensation and other
consideration. In order to initiate a conversation between the CI and [petitioner], the police
placed the two men in adjacent jail cells in
the county jail. No other inmate was in either
cell. [Petitioner] and the CI could not see
each other but could speak without being
overheard by another inmate. The police
recorded the ensuing conversation.

App.23a
Using gang and prison jargon, the CI
identified himself as an important member
of the Mexican Mafia. He stated that he had
the job of gathering information about the
charged offenses. The CI told [petitioner]
that drive-by shootings violated the “rules” of
the Mexican Mafia and the Mexican Mafia
wanted to find out whether the Sepulveda
shooting was a drive-by shooting. The CI
stated that [petitioner’s] “name is out there,”
and a “job” may happen which intimated that,
if the shooting was a drive-by, there could be
retaliation against [petitioner] while [petitioner] was in prison. But, if it was not a
drive-by shooting, the CI could spread the
word and forestall any retaliation.
[Petitioner] told the CI that he had driven to
the murder scene with Velasquez and Arauz.
[Petitioner] described what Sepulveda was
wearing and correctly described the street as
having no sidewalks. He told the CI that he
and Arauz approached Sepulveda. He shook
hands with Sepulveda and then “threw” his
barrio which apparently identified him as a
gang member. Arauz then shot Sepulveda.
[Petitioner] also admitted involvement on the
attempted murders.
During trial, the prosecution filed a motion
to admit a recording of the conversation
between [petitioner] and the CI into evidence.
[Petitioner] opposed admission arguing that
the CI coerced the confession by deceiving
[petitioner] into believing [petitioner] was in
danger from the Mexican Mafia. At a hearing

App.24a
on the motion, the trial court listened to the
audio tape of the conversation and considered
expert testimony offered by [petitioner] concerning the meaning of some of the CI’s gang
jargon.
The trial court granted the motion and admitted the evidence. In a carefully considered
order, the trial court concluded that the
confession resulted from an “acceptable law
enforcement ruse” and not from “coercion
which caused the defendant’s will to be
overborne.” The trial court found that no
“credible threat” was made by the CI and
[petitioner] could not have had a “reasonable
belief” that a threat on his life had been
made. The court also found that [petitioner]
was assertive and motivated by a desire to
get “full credit for doing the killing ‘right.’”
The California Court of Appeal then concluded
that petitioner’s confession was voluntary (Lodgment
7 at 5-6):
The trial court’s factual findings were supported by substantial evidence and, based on
our independent review of the record, the
confession was voluntarily made. The deception employed by the CI was proper and not
likely to produce an untrue or unreliable
confession. [Petitioner] was willing to speak
about the shooting and explained his criminal
conduct freely and without hesitation. The
record shows nothing physically or emotionally coercive about the conversation, or any
indication of vulnerability, intimidation or

App.25a
fear on the part of [petitioner] or that [petitioner] was unfamiliar with the criminal
justice system or the jail environment. [Petitioner’s] choice to confess was “essentially
free” and his will was not “overborne.” (People
v. Williams, supra, 49 Cal. 4th at p. 436.)
[Petitioner] relies on Arizona v. Fulminante
(1991) 499 U.S. 279, 287–288 (Fulminante),
where the United States Supreme Court held
that a confession was coerced when made in
exchange for protection against a threat of
physical violence. Although Fulminante
involved a jailhouse confession to a police
informant, the facts are readily distinguishable. Unlike in the instant case, the
Fulminante confession resulted from believable threats relayed by the informant and
the defendant’s fearful reaction.
In Fulminante, the defendant, while in
custody on an unrelated charge, confessed to
a paid informant that he had sexually
assaulted and murdered his 11-year-old
stepdaughter. (Fulminante, supra, 499 U.S.
at pp. 282–283.) In exchange for the confession, the informant had promised “protection”
from “tough treatment” in prison due to the
rumors of his involvement in the sexual
assault and murder of a child. (Id. at p. 283.)
The Supreme Court noted that the defendant
was particularly vulnerable, and had been
unable to adapt to the stress of prison life in
the past. (Id. at p. 286, fn. 2.)
[Petitioner] also relies on United States v.
McCullah (10th Cir. 1996) 76 F.3d 1087,

App.26a
which also, unlike the instant case, involved
credible and serious threats against the
defendant by the informant. In McCullah, a
CI facilitated the defendant’s use of drugs
immediately before the informant took the
defendant on a long drive in an isolated area.
(Id. at p. 1100.) During the drive, the informant told the defendant that a criminal drug
organization planned to kill him due to his
involvement in a criminal incident. Fearing
that the informant had been hired to kill him
during the drive, the defendant confessed to
involvement in the criminal incident. (Id. at
p. 1101.) In the instant case, [petitioner] was
in no immediate danger from the CI, and
there was no evidence that [petitioner] was in
fear of physical harm.
2. Analysis.
Petitioner claims that his confession was involuntary because the confidential informant issued a
“credible threat of physical violence” that was similar
to the threat the Supreme Court found coercive in
Fulminante. The threat in this case, according to petitioner, was a threat of retaliation by the Mexican
Mafia unless petitioner proved to the confidential
informant that the shootings were not committed as
drive-by shootings. The California Court of Appeal’s
reasons for rejecting petitioner’s claim, however, were
not objectively unreasonable.
Fear in the abstract is not enough; the threat of
physical violence must be “real and imminent to
constitute improper coercion.” Beaty v. Schriro, 509
F.3d 994, 1007 (9th Cir. 2007). The threat, however,

App.27a
can be indirect. Lam v. Kelchner, 304 F.3d 256, 264
(3d Cir. 2002) (recognizing that the threat of physical
violence in Fulminante was indirect). The confidential
informant did not explicitly threaten petitioner with
physical violence, as the defense expert acknowledged
at the suppression hearing. (1 RT 81.) Thus, an indirect
threat of physical violence had to be inferred from the
confidential informant’s words, particularly these
words from the beginning of the conversation (4 CT
673-74) (emphasis added):
There’s a job happening homie. You’re names
out there, homie. Rambo. Your name—your
name is out there, you know.
[....]
And then like I said they were—they were
waiting for you guys to come in because a job
happened—I’m gonna be straight with you
watch. A job happened homie and they think
that you guys know—did some job, you know,
in fuckin’—in El Rio.
According to petitioner, the phrase “There’s a job
happening” meant a current plan to kill him, and the
word “waiting” meant a pending threat of violence
from the Mexican Mafia. (Third Amended Petition at
9; see also 1 RT 48, 82.)
An inference of coercion from these words is not
the only reasonable inference. Ominous words do not
always amount to coercion. See Loza v. Mitchell, 766
F.3d 466, 479 (6th Cir. 2014) (no coercion from
comment that the suspect’s child would go “into never,
never land”); Rose v. Lee, 252 F.3d 676, 786 (4th Cir.
2001) (no coercion from cryptic promise that “things
would go easier” on the suspect if he confessed). The

App.28a
word “job” was used repeatedly during the conversation in several contexts unrelated to killing or physical
violence. As the trial court noted, the word “job” was
used to describe activity by law enforcement (4 CT
731), eavesdropping (4 CT 828), gang activity in
general (4 CT 830), gun purchases (4 CT 853), and
personal belongings (4 CT 867). (1 CT 213.) The word
“waiting” was also ambiguous because the confidential
informant did not elaborate what was awaiting petitioner. The confidential informant also denied a threat
of physical violence by reassuring petitioner that his
name was “not dirty” and clarifying that the Mexican
Mafia “just wanted to talk to you. That’s it.” (4 CT
710.)
At most, reasonable jurists could disagree as to
whether any of the words uttered by the confidential
informant raised an inference of a credible threat of
physical violence. Thus, even if the Court were to view
the confidential informant’s words as more threatening
than the state court found them to be, this is not enough
to warrant relief under the deferential AEDPA standard of review. See Brown v. Horrell, 644 F.3d 969,
981-82 (9th Cir. 2011) (holding that the “exceedingly
high bar” of the AEDPA precluded a finding of coercion
even when the police “deliberately preyed upon” a
suspect’s family connection to secure a confession);
Loza, 766 F.3d at 479 (“Even if we believed that some
statements could be characterized as threats, our
mere disagreement is not enough to supersede the
[state court’s] factual determination on habeas review.”)
(emphasis in original).
The way the confidential informant structured
the conversation—as a concern over drive-by shootings—also militates against a finding of an involuntary

App.29a
confession. The confidential informant was interested
in how the shootings were carried out, not who had
committed the shootings. Although some of the confidential informant’s questions presupposed petitioner’s
participation in the shootings (4 CT 676), that was not
the direct focus of the inquiry. Petitioner could have
addressed the confidential informant’s concern by
denying the drive-by shootings without revealing his
identity as a perpetrator. Petitioner could have credibly
done so because he claimed to know of the Mexican
Mafia’s rule against drive-by shootings and also knew
that the shootings, including the circumstances in
which they were committed, were widely-known and
had generated newspaper coverage. (4 CT 674, 788.)
Petitioner even brought the newspaper coverage to
the confidential informant’s attention. (4 CT 788.) In
this regard, petitioner’s case is distinguishable from
cases where a confidential informant could have been
satisfied only by the suspect’s confession of personal
participation in the crime. Cf. Fulminante, 499 U.S.
at 288 (finding coercion where target believed he had
to confess to the crime in order to avoid physical
violence); McCullah, 76 F.3d at 1100 (same where
target believed he had to confess to the crime in order
to stop the plan to kill him).
Other circumstances about the conversation further militate against a finding of coercion. Although the
conversation lasted throughout one day, this is not
dispositive. See United States v. Haswood, 350 F.3d
1027, 1028 (9th Cir. 2003) (“Even if we assume that
the interrogation lasted all day, . . . coercion typically
involves far more outrageous conduct.”). Nothing in
the record suggests that petitioner was deprived of
food, sleep, or any other necessity so as to support an

App.30a
inference of physical coercion. See Mickey v. Ayers,
606 F.3d 1223, 1234 (9th Cir. 2010) (distinguishing
coercion cases where suspects were deprived of food,
sleep, or ventilation).
Moreover, the disputed exchange about whether
the offenses were drive-by shootings occurred early (4
CT 673-74), shortly after the conversation started. See
United States v. Lewis, 528 F.2d 312, 314 (4th Cir.
1975) (finding confession voluntary in part because it
was made less than one hour after questioning
started). Soon afterwards, the confidential informant
reassured petitioner that he had nothing to worry
about. (4 CT 680.) Yet despite receiving this reassurance, petitioner repeatedly volunteered details about
the shootings later in the conversation. (4 CT 778,
785-86.) Given these circumstances, it was not
objectively unreasonable for the California Court of
Appeal to conclude that there was nothing physically
or emotionally coercive about the conversation. See,
e.g., Illinois v. Perkins, 496 U.S. 292, 298 (1990)
(finding no coercion where inmate appeared to be
motivated by a desire to brag about his crimes).
Petitioner’s reaction to the confidential informant
also militates against a finding of coercion. As the
California Court of Appeal found, petitioner did not
display vulnerability, intimidation, or fear. See Perkins,
496 U.S. at 298 (no coercion where the suspect
“showed no hint of being intimidated”); United States
v. Jacques, 744 F.3d 804, 809 (1st Cir. 2014) (“A
defendant’s calm demeanor and the lucidity of his
statements weigh in favor of finding his confession
voluntary.”). As evidence of his fear, petitioner cites
his question to the confidential informant, “So like
right now—right now my name is bad here or what

App.31a
homie?” (Third Amended Petition at 12-13, citing 4 CT
691.) But the context of that question does not support
an inference of fear: Shortly before that question, the
confidential informant reassured petitioner that he
had nothing to worry about (4 CT 680), and petitioner
asked the question while he expressed anger and
disappointment at the possibility of damage to his name
(4 CT 695, 713, 860). Petitioner even referred to the
powerful gang members who would spread rumors
about him as “jackasses,” “motherfuckers,” and “sons
of bitches.” (4 CT 788, 790.) Petitioner therefore
appeared to be motivated not by fear of physical retaliation, but by indignation over potential damage to his
reputation as a gang member.
Other exchanges during the conversation also belie
an inference of fear. Petitioner was friendly with the
confidential informant and treated him as a valuable
networking contact. He asked the confidential informant for help to buy guns and drugs outside the jail. (4
CT 840, 864.) Petitioner expressed interest in staying
in contact with the confidential informant and meeting
other members of the Mexican Mafia. (4 CT 835, 845.)
Petitioner’s personal characteristics on the whole
also militate against a finding of coercion. As the
California Court of Appeal found, petitioner was wellfamiliar with the criminal justice system: He had a
prior incarceration of five or six years at the California
Youth Authority and prior felony convictions as an
adult for robbery and conspiracy. (1 RT 73, 75.) Past
experience with the criminal justice system, even only
as a juvenile, militates against a finding of coercion.
See Hardaway v. Young, 302 F.3d 757, 767 (7th Cir.
2002). The record does not reflect that petitioner was

App.32a
particularly vulnerable or unable to adapt during his
prior incarcerations.
Petitioner also points out, however, that he lacked
formal education and was considered to lack intelligence. (1 RT 46, 74.) The record also reflects that
petitioner was on “suicide watch” when he first arrived
at the jail. (1 RT 108; 4 CT 675.) But it is unclear
whether petitioner was in fact depressed or suicidal
because as a matter of general policy, all incoming
detainees were placed on suicide watch for their first
72 hours at the jail. (5 RT 879.)
These alleged mental deficiencies by themselves
are insufficient to render petitioner’s confession involuntary. See Colorado v. Connelly, 479 U.S. 157, 164 (a
suspect’s mental condition by itself can never dispose
of the voluntariness issue); United States v. Frank,
956 F.2d 872, 875-76 (9th Cir. 1991) (finding no
coercion despite suspect’s low IQ and lack experience
with the criminal justice system). Moreover, the
record does not suggest that the confidential informant
exploited petitioner’s alleged mental deficiencies with
relentless or confusing questions in order to secure a
confession. Despite whatever mental deficiencies petitioner may have had, he was admittedly “street smart”
(1 RT 71) from his experience as a gang member, and he
spoke comfortably with the confidential informant
about street matters. The record therefore does not
support an inference that petitioner’s will was
overborne. See Ruvalcaba v. Chandler, 416 F.3d 555,
561 (7th Cir. 2005) (“[Petitioner] was an admitted
gang member, and the district court cannot be said to
have erred in presuming that he was “streetwise,” a
factor that reduces the importance of his lack of
experience and indicates the capacity to appreciate his

App.33a
Fifth Amendment rights.”) (citing Correll v. Thompson,
63 F.3d 1279, 1291 (4th Cir. 1995) (noting that defendant was streetwise and thus was capable of understanding his rights and of giving a voluntary statement, despite an IQ of 68)); cf. United States v.
Preston, 751 F.3d 1008, 1028 (9th Cir. 2014)
(confession was involuntary when suspect’s severe
intellectual impairment was combined with the
police’s relentless and inappropriate questioning
techniques).
Finally, petitioner cites another case by a district
court in the Ninth Circuit that granted habeas relief
under similar circumstances. In that case, a habeas
petitioner had made an involuntary confession to a
confidential informant posing as a member of the
Mexican Mafia inquiring about drive-by shootings.
See Dominguez v. Stainer, 2014 WL 1779546 (C.D. Cal.
Apr. 30, 2014). Despite these superficial similarities,
that case was different in important respects. The confidential informant in that case was much more
aggressive in how he talked to the petitioner by, for
example, repeatedly promising “stop orders” of a
planned hit against petitioner to lure him to confess
to the crime. See Dominguez, 2014 WL 1779546, at
*14 and nn. 4 and 5. Moreover, the petitioner in that
case was particularly vulnerable because he was
inexperienced in the adult criminal justice system and
repeatedly begged the confidential informant to
believe him that the shooting was not a drive-by. See
id. at *15. These circumstances did not exist in this
case.
In sum, the California Court of Appeal’s rejection
of petitioner’s claim that his confession was involuntary
under the totality of the circumstances was not

App.34a
objectively unreasonable. “It bears repeating that
even a strong case for relief does not mean the state
court’s contrary conclusion was unreasonable.” Richter,
562 U.S. at 102. The state court’s decision did not
result in a decision that was contrary to, or involved
an unreasonable application of, clearly established
federal law.
D.

Petitioner’s Request for an Evidentiary Hearing
Should be denied.

Petitioner requests an evidentiary hearing to
resolve his claims. (Third Amended Petition at 1;
Traverse at 15.)
However, as noted above, the Supreme Court
held in Pinholster, 563 U.S. at 180, that review of
state court decisions under § 2254(d)(1) “is limited to
the record that was before the state court that adjudicated the claim on the merits.” By its express terms,
§ 2254(d)(2) restricts federal habeas review to the
record that was before the state court. See also
Pinholster, 563 U.S. at 185 n.7 (noting that an unreasonable determination of fact under § 2254(d)(2) must
be unreasonable “in light of the evidence presented in
the State court proceeding,” and stating that “[t]he
additional clarity of § 2254(d)(2) on this point . . . does
not detract from our view that § 2254(d)(1) also is
plainly limited to the state-court record.”). Thus, federal
courts may not consider new evidence on claims adjudicated on the merits in state court unless the petitioner first satisfies his burden under § 2254(d) and
then satisfies his burden under § 2254(e)(2). See
Pinholster, 563 U.S. at 181-85; Holland v. Jackson,
542 U.S. 649, 652-53 (2004). The Court’s findings
above that petitioner is not entitled to federal habeas

App.35a
relief under the AEDPA standard of review are
dispositive of petitioner’s request for an evidentiary
hearing as Grounds One and Two. As to Ground
Three, “an evidentiary hearing is not required on
issues that can be resolved by reference to the state
court record.” See Totten v. Merkle, 137 F.3d 1172,
1176 (9th Cir. 1998) (emphasis in original). The Court
has been able to resolve petitioner’s claim in Ground
Three by reference to the state court record.
Accordingly, the Court recommends that petitioner’s request for an evidentiary hearing be denied.
RECOMMENDATION
IT THEREFORE IS RECOMMENDED that the
District Court issue an Order: (1) approving and
accepting this Report and Recommendation; (2) denying
an evidentiary hearing; and (3) directing that Judgment
be entered denying the Third Amended Petition and
dismissing this action with prejudice.
/s/ Alexander F. MacKinnon
United States Magistrate Judge
Dated: September 18, 2017

App.36a
REHEARING DENIAL ORDER OF THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
(APRIL 23, 2020)
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
________________________
DANIEL FLORES,

Petitioner-Appellant,
v.
CHRISTIAN PFEIFFER, Warden,

Respondent-Appellee.
________________________
No. 18-55344
D.C. No. 2:13-cv-03934-JLS-AFM
Central District of California, Los Angeles
Before: HURWITZ and FRIEDLAND,
Circuit Judges, and KORMAN, District Judge.
The panel has voted to deny the petition for panel
rehearing. Judge Hurwitz and Judge Friedland vote
to deny the petition for rehearing en banc, and Judge
Korman has so recommended. The full court has been
advised of the petition for rehearing en banc and no
 The Honorable Edward R. Korman, United States District Judge
for the Eastern District of New York, sitting by designation.

App.37a
judge has requested a vote on whether to rehear the
matter en banc. Fed. R. App. P. 35. The petition for
panel rehearing and rehearing en banc, Dkt. 43, is
DENIED.
The motion to strike, Dkt. 44, is GRANTED.

App.38a
OPINION OF THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT DIVISION SIX
(NOVEMBER 29, 2012)
IN THE COURT OF APPEAL
OF THE STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT, DIVISION SIX
________________________
THE PEOPLE,

Plaintiff and Respondent,
v.
DANIEL FLORES,

Defendant and Appellant.
________________________
2d Crim. No. B231789
(Super. Ct. No. 2008046499)
(Ventura County)
Before: PERREN, J., GILBERT, P.J., and YEGAN, J.
Daniel Flores appeals the judgment following his
convictions for murder (Pen. Code, §§ 187, subd. (a)/
189),1 and two counts of attempted murder (§§ 664/187,
subd. (a)). The jury found allegations to be true that all
offenses were committed for the benefit of, at the
direction of, or in association with a criminal street
1 All statutory references are to the Penal Code unless otherwise
stated.

App.39a
gang (§ 186.22, subd. (b)(1)). The jury also found that
Flores intentionally and personally discharged a
firearm in the murder (§ 12022.53, subd. (e)(1)) and
attempted murders (§ 12022.53, subd. (d)). For these
offenses and associated enhancements he was
sentenced to life without possibility of parole, three
terms of 25 years to life, and determinate terms of 9
and 10 years, all to be served consecutively. Flores
contends the trial court erred by admitting a coerced
confession to a confidential informant, and hearsay
evidence of a witness statement made to the same confidential informant. He also contends the trial court
abused its discretion by failing to bifurcate trial of the
offenses and the gang enhancement. We affirm.
FACTS

Attempted Murders. Rafael R. lived on Lemar
Avenue in El Rio. During the afternoon of January 9,
2008, he was in his backyard painting. His nephew
Jesus R. was also in the backyard. Rafael saw a 20-to
25-year-old Hispanic man on a fence with a gun. The
man began firing his gun, wounding both Rafael and
Jesus. A witness also saw the shooter run to a car after
the shots were fired. The car drove away. Rafael and
Jesus survived the attack.
Sepulveda Murder. Armando Sepulveda, Sr., and
his family also lived on Lemar Avenue in El Rio. On the
evening of February 4, 2008, his son Armando Sepulveda, Jr., walked outside his house and was wounded
by several gunshots. Sepulveda managed to get back
into his house where he stated that “they shot me.” He
told his parents that he loved them, and fell to the
living room floor. His father took him to the hospital
where he died later in the evening.

App.40a
Three neighbors saw a man running from the
scene, and two neighbors heard four to six shots. One
neighbor described the man as slender and young and
wearing black clothing and a baseball cap. Another
neighbor described the fleeing man as running as if he
had something in his pocket. She also stated that he
got into a small light colored older “SUV Blazer or
Bronco or something,” and that one of its brake lights
was inoperative. The description was dispatched to
police.

Police Investigation. Approximately 20 minutes
after the shooting, a police officer patrolling the Colonia
section of Oxnard, saw a 1987 light gray Chevrolet
Blazer with a right brake light noticeably dimmer
than the left. The Blazer’s engine was running and the
driver was sitting in the vehicle. The officer turned
around and began driving towards the Blazer. The
driver exited the car and walked away with a man the
officer believed to have been a passenger in the
Blazer. The men were temporarily detained and
identified as Flores and Jose Velasquez. In the ensuing
weeks, police made two additional stops of a light
colored SUV Blazer. They were not positively identified
as the same vehicles, but both had an inoperative
brake light and Velasquez was the driver on both
occasions. Flores was a passenger on one occasion and
Brandon Arauz was a passenger on the other occasion.
On the same day as the second traffic stop, officers
found a .25-caliber handgun in a garage near a party
attended by Flores and other known Colonia Chiques
gang members. The expended bullet casing at the
scenes of the attempted murders and the murder were
fired from that gun.

App.41a

Confessions . In jailhouse conversations with a
police confidential informant (CI), Flores confessed to
involvement in the murder of Sepulveda and attempted
murder of Rafael and Jesus R., and Jose Velasquez
confessed to involvement in the murder. Flores stated
to the CI that he and Brandon Arauz went up to
Sepulveda, Flores shook Sepulveda’s hand, and Arauz
fired the fatal gunshots. Velasquez stated to the CI
that he drove to the Sepulveda residence with Flores
and Arauz. Flores and Arauz got out of the car and
walked towards Sepulveda’s residence where several
shots were fired.

Gang Evidence. A prosecution gang expert testified
that Flores, Brandon Arauz and Jose Velasquez were
active members of the Colonia Chiques criminal street
gang. The Colonia Chiques had an intense rivalry
with the El Rio criminal street gang, and members of
each gang often entered each other’s territory to “strike
out at” members of the other gang. The expert identified gang symbols and signs of the Colonia Chiques,
and described the gang’s extensive criminal activities.
He also testified to the importance of respect in the
gang and retaliation against expressions of disrespect.
DISCUSSION
No Error in Admission of Flores’s Confession
Flores contends the court erred in admitting his
confession to the CI. He argues that the confession
was obtained by coercion and deception when the CI
told Flores that he was in danger from the Mexican
Mafia unless he told the CI the truth about the
shootings. We disagree.

App.42a
The federal and state Constitutions prohibit the
admission of a defendant’s involuntary confession into
evidence at trial. (People v. Williams (2010) 49 Cal.4th
405, 436; People v. Carrington (2009) 47 Cal.4th 145,
169.) When a confession is challenged as involuntary,
the prosecution has the burden of establishing by a
preponderance of the evidence that the confession was
voluntarily made. (Williams, at p. 436.) In making the
determination, courts must consider the totality of the
circumstances.
(Ibid.)
The
defendant’s
age,
sophistication, education, physical and mental health,
and experience with the justice system as well as the
length of the interrogation, its location, and the
interrogation techniques employed must be
considered. (Ibid.)
Police may use falsehoods and psychological ploys
provided they are not “so coercive that they tend to
produce a statement that is both involuntary and
unreliable.” (People v. Williams, supra, 49 Cal.4th at p.
436.) Questioning by law enforcement may include an
exchange of information, theories of events, and
confrontation with contradictory facts, but not threats
of punishment for failing to admit facts or false
promises of leniency as a reward for an admission.
(People v. Carrington, supra, 47 Cal.4th at p. 170.)
A finding of coercive police activity is a prerequisite
to a finding that a confession was involuntary. (People
v. Cruz (2008) 44 Cal.4th 636, 669.) The test is whether
the “defendant’s choice to confess was not ‘essentially
free’ because his [or her] will was overborne.” (People
v. Williams, supra, 49 Cal.4th at p. 436.) On appeal,
we accept the trial court’s findings as to the circumstances of the confession when supported by substantial evidence, but independently review the trial

App.43a
court’s ruling on the voluntariness of the confession.
(Ibid.)
Here, the police used a paid CI who had worked
in that capacity numerous times in return for monetary
compensation and other consideration. In order to
initiate a conversation between the CI and Flores, the
police placed the two men in adjacent jail cells in the
county jail. No other inmate was in either cell. Flores
and the CI could not see each other but could speak
without being overheard by another inmate. The
police recorded the ensuing conversation.
Using gang and prison jargon, the CI identified
himself as an important member of the Mexican
Mafia. He stated that he had the job of gathering
information about the charged offenses. The CI told
Flores that drive-by shootings violated the “rules” of
the Mexican Mafia and the Mexican Mafia wanted to
find out whether the Sepulveda shooting was a driveby shooting. The CI stated that Flores’s “name is out
there,” and a “job” may happen which intimated that,
if the shooting was a drive-by, there could be retaliation
against Flores while Flores was in prison. But, if it
was not a drive-by shooting, the CI could spread the
word and forestall any retaliation.
Flores told the CI that he had driven to the
murder scene with Velasquez and Arauz. Flores
described what Sepulveda was wearing and correctly
described the street as having no sidewalks. He told
the CI that he and Arauz approached Sepulveda. He
shook hands with Sepulveda and then “threw” his
barrio which apparently identified him as a gang member. Arauz then shot Sepulveda. Flores also admitted
involvement on the attempted murders.

App.44a
During trial, the prosecution filed a motion to
admit a recording of the conversation between Flores
and the CI into evidence. Flores opposed admission
arguing that the CI coerced the confession by deceiving
Flores into believing Flores was in danger from the
Mexican Mafia. At a hearing on the motion, the trial
court listened to the audio tape of the conversation
and considered expert testimony offered by Flores concerning the meaning of some of the CI’s gang jargon.
The trial court granted the motion and admitted
the evidence. In a carefully considered order, the trial
court concluded that the confession resulted from an
“acceptable law enforcement ruse” and not from “coercion which caused the defendant’s will to be
overborne.” The trial court found that no “credible
threat” was made by the CI and Flores could not have
had a “reasonable belief” that a threat on his life had
been made. The court also found that Flores was
assertive and motivated by a desire to get “full credit
for doing the killing ‘right.’’’
The trial court’s factual findings were supported
by substantial evidence and, based on our independent
review of the record, the confession was voluntarily
made. The deception employed by the CI was proper
and not likely to produce an untrue or unreliable
confession. Flores was willing to speak about the
shooting and explained his criminal conduct freely
and without hesitation. The record shows nothing
physically or emotionally coercive about the conversation, or any indication of vulnerability, intimidation or
fear on the part of Flores or that Flores was unfamiliar
with the criminal justice system or the jail

App.45a
environment. Flores’s choice to confess was “essentially free” and his will was not “overborne.” (People v.
Williams, supra, 49 Cal.4th at p. 436.)
Flores relies on Arizona v. Fulminante (1991) 499
U.S. 279, 287-288 (Fulminante), where the United
States Supreme Court held that a confession was
coerced when made in exchange for protection against
a threat of physical violence. Although Fulminante
involved a jailhouse confession to a police informant,
the facts are readily distinguishable. Unlike in the
instant case, the Fulminante confession resulted from
believable threats relayed by the informant and the
defendant’s fearful reaction.
In Fulminante, the defendant, while in custody
on an unrelated charge, confessed to a paid informant
that he had sexually assaulted and murdered his 11year-old stepdaughter. (Fulminante, supra, 499 U.S.
at pp. 282-283.) In exchange for the confession, the
informant had promised “protection” from “tough
treatment” in prison due to the rumors of his involvement in the sexual assault and murder of a child. (Id.
at p. 283.) The Supreme Court noted that the defendant was particularly vulnerable, and had been unable
to adapt to the stress of prison life in the past. (Id. at
p. 286, fn. 2.)
Flores also relies on United States v. McCullah
(10th Cir. 1996) 76 F.3d 1087, which also, unlike the
instant case, involved credible and serious threats
against the defendant by the informant. In McCullah,
a CI facilitated the defendant’s use of drugs immediately before the informant took the defendant on a
long drive in an isolated area. (Id. at p. 1100.) During
the drive, the informant told the defendant that a
criminal drug organization planned to kill him due to

App.46a
his involvement in a criminal incident. Fearing that
the informant had been hired to kill him during the
drive, the defendant confessed to involvement in the
criminal incident. (Id. at p. 1101.) In the instant case,
Flores was in no immediate danger from the CI, and
there was no evidence that Flores was in fear of
physical harm.
No Error in Admission of Velasquez Statement
The police also used the CI to obtain information
from Jose Velasquez in the same manner as with
Flores. The CI and Velasquez were placed in adjacent
jail cells and the ensuing conversation was recorded.
The trial court admitted statements by Velasquez
under the declarations against penal interest exception
to the hearsay rule. (Evid. Code, § 1230.) Flores
contends the statements do not qualify as declarations
against penal interest because they were not specifically
disserving to Velasquez and were untrustworthy. We
disagree.
Evidence Code section 1230 permits admission of
a hearsay statement when the declarant is unavailable, the statement was against the declarant’s penal
interest when made, and the statement is sufficiently
reliable to warrant admission despite its hearsay
character. (People v. Duarte (2000) 24 Cal.4th 603,
610-611.) To be admissible, a statement or portion of
a statement must be “specifically disserving” to the
declarant’s penal interest so as to give the statement
reliability and trustworthiness. (Id. at pp. 612, 614;
see also People v. Cervantes (2004) 118 Cal.App.4th
162, 176-177; People v. Greenberger (1997) 58 Cal.App.
4th 298, 329, 334.)

App.47a
The focus of the declaration against penal interest
exception to the hearsay rule is the trustworthiness of
the declaration. (People v. Geier (2007) 41 Cal.4th
555, 584.) In determining trustworthiness, courts look
to the totality of the circumstances including the
declarant’s motivation, the words spoken, the circumstances of the statement, and the declarant’s
relationship to the defendant. (Ibid.; People v. Duarte,
supra, 24 Cal.4th at p. 614.) In general, the least
trustworthy statements are made to the police in order
to deflect criminal responsibility onto others and the
most trustworthy occur in noncoercive and uninhibited
settings. (People v. Greenberger, supra, 58 Cal.App.4th
at p. 335.) Generally, when an inculpatory statement
is combined with self-serving exculpatory assertions,
the exculpatory assertions will be considered untrustworthy and inadmissible. (Duarte, at p. 612.)
We review a decision to admit or exclude evidence
under Evidence Code section 1230 for abuse of discretion. We will uphold the trial court’s ruling unless it
is arbitrary, capricious, or patently absurd so as to
result in a miscarriage of justice. (People v. Geier,
supra, 41 Cal.4th at p. 585.)
As with Flores, the CI identified himself to
Velasquez as a member of the Mexican Mafia who had
been designated to determine whether the Sepulveda
murder was a drive-by shooting. Velasquez told the CI
that he drove the car to the Sepulveda residence and
that Flores and Arauz were passengers in the car. He
stated that he parked three houses down from
Sepulveda’s house, and that Flores and Arauz got out
of the car and shot Sepulveda. Velasquez heard six
shots, and knew the gun was a .25-caliber

App.48a
semiautomatic handgun. Velasquez then picked up
Flores and Arauz and drove away.
The trial court granted the prosecution’s motion
to admit these statements as declarations against
Velasquez’s penal interest. The court found that each
of the statements was “specifically disserving” to
Velasquez’s penal interest, and were not self-serving
statements designed to minimize his involvement in
the shooting. The court reasoned that, because
Velasquez thought he was speaking to a gang member,
not the police, he was motivated by a desire to describe
the murder as it happened and not to minimize his
culpability. We conclude that the trial court did not
abuse its discretion in admitting the statements.
Flores concedes that it was against Velasquez’s
penal interest to reveal his involvement in the shooting
but that his statement that Flores and Arauz fired the
shots was a self-serving statement intended to shift
primary responsibility onto Flores and Arauz. We
agree that Velasquez may have been attempting to
deflect some criminal responsibility to others, but
conclude that his statement was essentially inculpatory
in its entirety. A statement that incriminates others
along with the declarant is admissible as long as the
self-incriminating statements are unequivocal and an
integral part of the statements against penal interest.
(People v. Samuels (2005) 36 Cal.4th 96, 120-121; see
also People v. Cervantes, supra, 118 Cal.App.4th at p.
175; People v. Greenberger, supra, 58 Cal.App.4th at
pp. 339-340.) Here, Velasquez unequivocally admitted
his involvement in the Sepulveda shooting and his
identification of Flores and Arauz was part of his explanation of the shooting and described his actions.

App.49a
He was describing his crime, not blaming the crime on
another.
Flores also repeats his argument regarding the
use of coercion by the CI so as to render the statements
involuntary. We have previously discussed that issue
in connection with the confession by Flores and, for
the same reasons, conclude that coercion and threats
were not used by the CI to extract the Velasquez statements.
No Abuse of Discretion in Failure to Bifurcate Gang
Enhancement
Flores contends the trial court abused its discretion
by declining to bifurcate trial of the substantive
offenses and the gang enhancement. We disagree.
A trial court has discretion to bifurcate a gang
enhancement when the probative value of the gang
evidence is outweighed by a risk of undue prejudice.
(People v. Hernandez (2004) 33 Cal.4th 1040, 10481051.) Gang evidence always carries a potential for
prejudice and, when gang enhancements are not
alleged, the probative value of such evidence is often
minimal. Conversely, when an offense is alleged to be
gang-related, gang evidence is relevant and highly
probative to prove elements of the charged offense.
(Id. at p. 1049.) “Evidence of the defendant’s gang
affiliation—including evidence of the gang’s territory,
membership, signs, symbols, beliefs and practices,
criminal enterprises, rivalries, and the like—can help
prove identity, motive, modus operandi, specific
intent, means of applying force or fear, or other issues
pertinent to guilt of the charged crime.” (Ibid.) To the
extent that evidence supporting a gang enhancement is

App.50a
admissible at a trial of the offense, bifurcation is not
necessary. (Id. at pp. 1049-1050.)
In this case, evidence of uncharged gang conduct
was inextricably intertwined with evidence of guilt and
was particularly relevant to Flores’s identity, motive,
knowledge, and intent. (See People v. Hernandez,
supra, 33 Cal.4th at p. 1048.) “‘[B]ecause a motive is
ordinarily the incentive for criminal behavior, its
probative value generally exceeds its prejudicial effect,
and wide latitude is permitted in admitting evidence
of its existence.” [Citations.]’’’ (People v. Samaniego
(2009) 172 Cal.App.4th 1148, 1168; People v. Gonzalez
(2005) 126 Cal.App.4th 1539, 1550.)
Flores concedes that some gang evidence was
admissible but argues that admission of evidence of a
large number of predicate offenses unrelated to Flores
was prejudicial. We agree that, because predicate
offenses need not be related to the defendant or charged
offenses, their admission provides a potential for prejudice. (People v. Hernandez, supra, 33 Cal.4th at p.
1049.) Nevertheless, none of the predicate offenses in
this case was more serious than the charged offenses,
and the number offered into evidence was not so great
as to cause significant prejudice. The burden is on the
defendant to establish a substantial danger of prejudice requiring bifurcation. (Id. at p. 1051.) Flores has
failed to meet that burden.
The judgment is affirmed.
PERREN
Judge

App.51a
We concur:
GILBERT
Presiding Judge
YEGAN
Judge
______________________________
Patricia M. Murphy, Judge
Superior Court County of Ventura
______________________________
Susan B. Lascher, under appointment by the
Court of Appeal, for Defendant and Appellant.
Kamala D. Harris, Attorney General, Dane R.
Gillette, Chief Assistant Attorney General, Lance E.
Winters, Senior Assistant Attorney General, Chung L.
Mar, Viet H. Nguyen, Deputy Attorneys General, for
Plaintiff and Respondent.

App.52a
TRANSCRIBED RECORDING
BETWEEN CONFIDENTIAL INFORMANT
BRACKNELL AND DANIEL FLORES
(MARCH 6, 2008)

[Transcript Extract; Page 1362]
DF: Yeah, yeah.
CI: They are Carnales also. They just came back from
the joint.
DF: All right.
CI: Yeah, he’s up there in fuckin’ gray band too. Also
Gus like I told you.
DF: Yeah.
CI: He’s—he’s on top, you know.
DF: Mando.
CI: And then—there’s a job happening homie. You
know—you know Spanish, right?
DF: Yes.
CI: Good. There is a job happening, homie. You’re
names out there, homie. Rambo. Your name—
your name is out there, you know.
DF: Good or bad?
CI: Well, watch, let me explain, all right? The thing
is BiBi’s up there too, you know?
DF: Yeah.
CI: And they were wait—you know—you know you’re—
you’re homie Skull? Skull.
DF: Yeah, yeah, yeah.

App.53a
CI: He was supposed to fuckin’ run down—run it
down on you guys, you know, and I don’t know
what happened. Because Gus communicated with
him, you know.
DF: What you mean, run it down?
CI: Watch, let me explain, all right? And then like I
said they were—they were waiting for you guys
to come in because a job happened—I’m gonna be
straight with you watch. A job happened homie
and they think that you guys know—did some
job, you know, in fuckin’—in El Rio.
DF: Yeah.
CI: Fine, watch. I’m gonna be straight with you homie
‘cause I don’t—since you came in here, I gotta run
court on you, right?
DF: Mando.
CI: Fine. And if you fuckin’, you know, lie to me or
something homie, I’m the one that’s gonna be on
the fuckin’ jam. You know what I mean? You hear
me?
DF: Yeah, I hear you, doggie.
CI: Fine. This—this job is pretty serious homie, you
know. Fine. The, thing is homie that this job from
fuckin’ El Rio they’re trying to say that it was a
fuckin’ drive-by, you know. You know what I
mean?
DF: Yeah.
CI: You know the rules?
DF: Yeah, I know all the rules.
CI: You know the rules of La Eme (Mexican Mafia)?

App.54a
DF: Hell yeah.
CI: So you know where I’m coming from, right?
DF: Yes.
CI: Yeah, so.
DF: For which one, doggie?
CI: Do you know—you know the fuckin’ job on—
fuckin’—with Casper?
DE: Yes.
CI: In—in El Rio?
DF: Yeah.
CI: Fine. This is how it came down. That dude’s
family threw a jail letter to fuckin’—because his
family has an uncle who is from La Eme too, you
know. And his uncle—his family wrote his uncle
to Pelican Bay and they wrote over here, you
know?
DE: Yeah.
CI: To Tapia—to Tapia. And that’s why they’re
saying of that job. You know—you get me—you
get me?
DF: Yeah. Yeah, G. Hey, how can—how can I get—
how can I make it to the hole, dog?
CI: What—what do you mean?
DF: I want to get at my homie Gus, G. You know what
I mean? Like what the fuck?
CI: No, no. Gus is in fuckin’ red band. Gus is in red
band. Your homie Little Leno—you hear me?
DF: Yeah.

App.55a
CI: Little Leno and Ram is in the hole. They won’t
send you to the—they’ll send you to the hole but
Gus is not there homie. Gus is red band. You’re
green band. You’re gonna go to G quad. You’re
here for fuckin’—for suicide watch. You hear me?
DF: Yup.
CI: The only—the only thing I want to know is to
throw—I gotta throw a jail letter to the—that
you’re down here, right, to Gus.
DF: Yeah.
CI: You hear me? And I gotta throw a jail letter up
there and tell them you’re here. The only thing I
want to know is if you [plural] got off of the car
homie.
DF: You got to homie.
CI: That’s—it’s the only thing—because if—if you
passed—
DF: ‘Ay—‘ay dog, but don’t you think it is dangerous
to talk about this shit right here, jackass?
CI: Homie, I wouldn’t be fuckin’ talking to you
holmes. You know what I mean?
DF: Yeah, G.
CI: I wouldn’t be fuckin’ putting myself on the fuckin’
line like that homie. I just finished coming from
the Bay too, homie. Nah, don’t trip on that, holmes.
DF: Hey, jackass.—
CI: Hey.
DF: That shit was not like that, homie, word. Fuck, G.
CI: But you [plural] did—you [plural] did get off?

App.56a
DF: All the way homie.
CI: You [plural] got off and you [plural] walked.
Because BiBi is talking to Tapia and Tapia wants
to have—he wants to get it all-straight, you
know?
DF: Yeah. Hell, yeah. Hell, yeah, G. What’s up?’ Can
I send him a jail letter, or what?
CI: Yeah, do a jail letter homie and tell him you know
what’s up and—but I just want to know if—if you
guys passed by and fired, or if you [plural] got off?
DF: Hey, one thing homie, when they—when they
lifted me in the barrio they always showed me
how to do things right. You hear me?
CI: Yeah.
DF: I am the (IN). I am a man. You understand me,
dog?
CI: Well, that is what I am asking from you, man to
man homie that—
DF: Oh, hey, dog, I—I do not do that shit. That is
fuckin’ nigger shit, G. You know what I mean?
CI: That’s what I mean homie.
DF: Come on doggie. I’m the race dog—
[...]

[Transcript Extract; Page 1380]
DF: Honestly, doggie, I—I feel homie based out to
my—like to myself dog if I still see anybody like—
I’m not gonna say no big homie, G, but like—like
a regular homie try to come at me—come at me
like that I’m gonna take flight on that fool, G.

App.57a
CI: Yeah, just—just be aware that it is no one big,
you know, ‘cause you’re gonna get in a jam. You
know what I mean?
DF: Yeah, yeah. So like right now—right now my
name is bad here or what homie?
CI: Yeah, yeah, homie. Yeah.
DF: Serious?
CI: Yeah, homie, yeah. Yeah, you know, and like you
told me—like I tell you right now homie. I’m
telling you like a man, homie. You know what,
what you said right now, with that I have enough
to make it clear. You understand me? Because I
got some juice too, you know?
DF: Yup.
CI: I got some juice homie. With that, I have enough
to clear up the things that everything is okay.
That you guys got off, you shook his hand, you
seen him in the eye, and you boom, boom. The job
happened. You blasted him. You threw the barrio
and that’s how it happened, you know? And I’m
gonna tell the big homies, you know what, I’m not
even gonna say anything. I’m gonna say, you
know what, Nutty-Rambo, he is clean homie and
it is . . .
[...]

[Transcript Extract; Page 1371]
DF: They want to—come on dog.
CI: Yeah. They start fuckin’ crying, you know.

App.58a
DF: Yeah, exactly homie. I’ve—I’ve—hey, dog, I’ve
been dumped on in front of my mother when they
do their drive-bys, G.
CI: Oh, is that right?
DF: Come on dog. And they throw barrio homie like
fuckin’ straight niggers dog. You know what I
mean homie? They’re throwing—homie, to dick
with that, G. You know what I mean. Hell, yeah,
dog.
CI: Say—say it’s like I said. Watch—watch. Nutty,
my respect is for you, homie. I like your style. You
know, I like the way you come in and shit and I
got a lot of respect but I have—I have—I am from
Eme and I’m a prison politic. You know homie?
And that’s how we got fuckin’ respect here. You
understand me?
DF: Yes.
CI: Hey, like you say structure, you know? And that’s
all about fuckin’ respect. And like I say homie, I
got your back, homie, don’t worry about your
name. It is clean homie. I am going to send a jail
letter with Tapia. I am going to tell him, you
know what, your homie he’s clean homie. He is
clean. And that is it. It is finished. You know. You
know what I mean?
DF: Yes, G.
[...]

[Transcript Extract; Page 1381]
. . . finished. You know what I mean?
DF: Mando. I appreciate it doggie.

App.59a
CI: Yeah.
DE: ‘Ay so where’s my big homie (INAUDIBLE). Are
my homies agreeing that my name is dirty or
what?
CI: No, well, they were—they were—they were—
their names were out, you know. It was your
name. There was the name of—they call him
Tokyo too, right?
DF: Who?
CI: BiBi.
DF: Yeah.
CI: They call him Tokyo?
DF: Yeah.
CI: And Thief also you know. And like I tell you, they
went to red band and they are talking with them
up there too. But what Tapia told me, he already
talked to them, you know, and they said the same
thing you are saying right now. Right?
DF: Yeah.
CI: So this shit is cleared up now. I can, you know,
confirm the job.
DF: Mando. Hey, so like—like what status was my
name on there right now, G, like—like no good or
what?
CI: Nah, you’re good homie. That’s it. Don’t worry
about it. You know, I give you my word like a man
homie. Homie.
[...]

App.60a

[Transcript Extract; Page 1396]
DF: Yeah.
CI: They wanted to get your side of the fuckin’ story,
you know.
DF: Mando.
CI: Because they are not just going to go by what that
dude upstairs says, you know?.
DF: Yup, yup.
CI: Because they were—they probably just saying oh,
they just wanna fuckin’ get back just because that
job happened with his nephew, you know.
DF: Yeah. Hell yeah, dog. ‘Cause I—
CI: Yeah.
DF: —like honestly homie, that is how I feel, G, that
that dude—just because he is there—he is in that
position that he has power right now, as long as
he does not use it. You know what I mean? Understand both of our sides, G, you know what I mean?
CI: Nutty, I’m giving you my word right now, homie.
It doesn’t work like that homie, you know?
DF: Yup.
CI: That is why I am talking to you. That is why I
want to know if what you are telling me, is gonna
match with what Tapia knows, you know?
DF: Yeah.
[...]

App.61a

[Transcript Extract; Page 1419]
CI: Say I’m here, homie, all right.
DF: All right. Hey, did you already do the jail letter
for my comrade?
CI: Yes. I got it ready, homie, yeah.
DF: All right. Mando fool. Whatever you need, hit me
up, doggie.
CI: All right—right.
DF: Right on.
[...]

[Transcript Extract; Page 1482]
CI: Hell, yeah.
DF: You think we’ll get a—a response back tomorrow?
CI: Yeah, we should in the morning homie. Hell yeah.
Yeah, especially if it’s true homie, they won’t take
you homie.
DF: Nah?
CI: Nah. They’ll probably take you back to fuckin’—
leave you in the fuckin’, uh, in one of them
holding cells over there in booking.
DF: Downstairs, huh?
CI: Yeah.
DF: Fuck that dog.
CI: They’ll give you a fuckin’ timeout.
DF: Last time they did that shit to me, I was hating
life homie.

App.62a
CI: Hell yeah. Yeah, they’ll put you right there near
fuckin’ releasing.
DF: Hum? Oh, yeah, yeah.
CI: Yeah. You don’t see shit there man.
DF: Fuck, you’ll see a lot fools go home though.
CI: Yeah, yeah. Yeah, they used to have the women
right there in section one.
DF: Yeah?
CI: Yeah, but they moved em.
DF: Where are those dogs at right now?
[...]

[Transcript Extract; Page 1496]
CI: How?
DF: Do you think that these jackasses can hear us?
CI: No, that job is against the law homie. That is
entrapment. They cannot do that job to you here.
You know what I mean?
DF: Because I heard that someone—I don’t know if
that fool upstairs dog, because the fuckin’ toilets
were packed.
CI: Hell, no, homie, I am not talking to you like this
homie because I’ll be in a jam also homie, you
know.
DF: Yeah.
CI: Hell no.
DF: And what about up here jackass, you know where
you talk to the guards?

App.63a
CI: Where?
DF: You know when you push the button to talk to the
guards?
CI: Yes.
DF: You don’t think they leave that shit open so they
can hear us?
CI: No, you hear it when it turns on homie. You hear
a pop, but they do not hear you when you’re
talking like me and you in the toilet.
DF: Yeah.
CI: They do not hear you homie. But when they turn
it
[...]

[Transcript Extract; Page 1586]
You know. And—and he knows—he knows what, you
know, what’s—what’s up, you know.
DF: How did you tell him in the letter?
CI: What?
DF: How did you tell him in the letter?
CI: I told him like this look. In the letter I write—I
write numbers homie. I do not write with words.
We write in code. You know?
DF: That I do not know.
CI: No, that is what I am explaining to you. He—he
knows his—he knows his—we have the same
code. We use numbers for letters like codes.
DF: Yeah.

App.64a
CI: We use codes homie. And he knows the password.
You know? And I just put in the letter—in the
letter, that I already talked to you and you explained to me what happened with the job, and
that you guys got off, you know, and everything
is fine and I put my stamp for you. I put my back
on you. You know? I got your back. That’s it. I put
my name and it is all clean. So you know what is
going to come back?
DF: Yup.
CI: The dude is going to tell me, you know what,
thank you very much gangster. Thank you very
much G; that you got everything, you know,
everything is fine. You already talked to my . . .

App.65a
TRANSCRIBED RECORDING
BETWEEN CONFIDENTIAL INFORMANT
BRACKNELL AND RAMON DOMINGUEZ
(FEBRUARY 2008)

Dominguez v. Stainer
United States District Court for the
Central District of California
No. CV 12-8280 AG (FFM)
ENGLISH TRANSLATION

[Transcript Excerpts; Page 705]
CI You got about three of them that are, that are M
too, right?
RD Right on.
CI And look it, a job went down Homie. And I want
to be straight with you. You know?
RD Right on.
CI I want, what happened with Rhino?
RD Well. Rhino, that’s my, that’s my crime partner
Little dog.
CI He’s still down there?
RD I don’t know, Dog, I don’t know.
CI He didn’t twist with you?
RD Yeah; it’s true.
CI Yeah, look it Homes. I’m gonna (sic.) be straight
with you. The, your, your, your brothers up
there . . .

App.66a
RD Uh huh.
CI They told me to run court on you, Homie. Do you
understand me?
RD Uh, like for you to run the test on me they shoed
you?
CI Huh?
RD That you run the test on the, did they show him?
CI Yeah. Yeah, Yeah. yeah.
RD Ye. (sic.)
CI Because a job went down that just doesn’t fly.
With you guys. You Know?
RD With . . ., just with us?
CI Yes with you and Rhino and the other Homie.
RD Yea.
CI When that job went down with you guys, and that
job just doesn’t fly, Homie. You know?
RD It just doesn’t?
CI No, it didn’t work out Homie, because everyone
up there knows and they are waiting for you up
there.
RD Yee . . .
CI I didn’t know that they called you Ran, but they
were waiting for your name.
RD Yea.
CI Do you understand me? So, knows what? That job
that you guys did, like I said, with the M, that, that
job of drive bys doesn’t-go. Do you know man.

App.67a
RD I didn’t do a drive by, Dog.
CI Hey, well that’s what they’re saying, Homie.
RD Nah. Dog, no, I didn’t do a drive by. Little dog.
CI Look it, look it, that Rams . . .
RD Yee (sic.)
CI And they gave me, you know, just to let you up.
And top of you, you know what is, you know.
RD Right on.
CI Hueso. You gonna be here a little bit Homie. And
then you’re gonna go up there and they’re waiting
for you. You know?
RD Yee (sic.)
CI I was given that job Homie. And you guys are on
the list. You know?
RD Right on.
CI Know what, know what I am telling you?
RD Right on, but I didn’t do any drive by, Dog.
CI What’s up, Homes?
RD I got out and, and I got the dude, but it is not a
drive by.
CI He was a dude from, a tagger, or something?
RD Yes, but I got dude. I, I swear that I got out. And
I got the dude.
CI That, that dude, that dude of the tagger. Has a
brother, also from the M, Homes. You know?
RD Right on.

App.68a
CI And that dude, that, that did that job, is up there,
and the dude is saying that it was a drive by.

